TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Schedule K-1 Matching Program Has
                   Been Improved, but More Can Be Done to
                          Increase Its Effectiveness



                                      September 25, 2006

                              Reference Number: 2006-30-159




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 25, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Schedule K-1 Matching Program Has Been
                              Improved, but More Can Be Done to Increase Its Effectiveness
                              (Audit # 200530031)

 This report presents the results of our review of the Schedule K-11 portion of the Underreporter
 Matching program. The overall objective of this review was to determine whether changes in the
 processing of cases involving Schedule K-1 income in the Internal Revenue Service’s (IRS)
 Underreporter matching program have improved the program’s effectiveness. We also
 determined whether additional steps could be taken to further reduce the issuance of unnecessary
 notices to individual taxpayers and still ensure notices are issued when needed.

 Impact on the Taxpayer
 As of March 31, 2006, the IRS had issued 71,000 notices to taxpayers questioning whether they
 had properly reported their income from Schedule K-1 for Tax Year 2003. Many notices could
 have been avoided if taxpayers and/or their preparers had ensured documentation was provided
 to show offsets they had taken against income related to Schedules K-1, and if they had ensured
 their Schedule K-1 entity information was accurate when the Schedules K-1 were originally
 filed. By making the changes recommended in this report, the IRS can further reduce the burden
 experienced by taxpayers receiving unnecessary notices questioning whether they included all of
 their income from Schedules K-1 on their individual income tax returns.


 1
  Beneficiary’s Share of Income, Deductions, Credits, etc. (Form 1041 Schedule K-1); Partner’s Share of Income,
 Deductions, Credits, etc. (Form 1065 Schedule K-1); and Shareholder’s Share of Income, Deductions, Credits, etc.
 (Form 1120S Schedule K-1).
                     The Schedule K-1 Matching Program Has Been Improved, but
                           More Can Be Done to Increase Its Effectiveness




Synopsis
In two previous reports,2 we discussed how the limitations on the IRS form Supplemental
Income and Loss (Form 10403 Schedule E) would result in unnecessary notices to taxpayers and
recommended certain changes be made to the Schedule E to improve the effectiveness of the
Schedule K-1 matching program. The IRS made changes to the Schedule E and its instructions,
asking taxpayers to separately identify offset amounts and identify the reasons for the offsets.
However, IRS management states they are limited in what changes they can make to the current
Schedule E. In addition, issues relating to the burden caused by additional reporting
requirements for taxpayers and costs related to processing any additional information have to be
weighed against the costs of manually screening these cases in the Underreporter function.
The IRS has continued to implement ways to reduce the issuance of unnecessary notices,
including extensive screening of the tax returns to locate reasons for differences between what
was reported to the IRS on Schedules K-1 and what taxpayers reported on their individual
income tax returns.4 The screen-out and no-change rates continue to be high for this program.
Most of the notices resulting in no change to tax could have been avoided. Based on a limited
judgmental sample of 57 no-change cases, we determined the majority of unnecessary notices
issued to taxpayers were due to taxpayer or preparer errors. Many of these taxpayer and preparer
errors could have been avoided if proper documentation had been provided to show offsets that
had been taken against income related to Schedule K-1 or if Schedule K-1 entity information had
been accurate when the Schedules were originally filed.
Other unnecessary notices resulted from IRS processing errors and could have been avoided had
the IRS ensured the Schedules K-1 from fiscal year tax returns5 were included in the correct
year’s Information Returns database. During discussions with IRS officials, we learned that
electronically filed fiscal year Schedules K-1 were not properly identified as fiscal year returns

2
  The Internal Revenue Service Successfully Processed Schedules K-1 for Its Matching Program, However, Tax
Form Changes Would Reduce Unnecessary Notices to Taxpayers (Reference Number 2002-30-141, dated
July 2002) and The Internal Revenue Service Could Reduce the Number of Unnecessary Notices Sent to Taxpayers
Regarding Unreported Income From Schedules K-1 (Reference Number 2003-30-071, dated March 2003).
3
  U.S. Individual Income Tax Return.
4
  A case is first screened by an IRS employee, who manually reviews the taxpayer’s individual income tax return to
find (or match) the unreported amounts. If the amounts are located, the case is closed or “screened-out,” and no
action is taken. If the unreported amounts are not found on a taxpayer’s return during screening, the IRS sends a
notice to the taxpayer regarding the unreported income amounts. Any taxpayer receiving a notice as a result of an
Underreporter program case is given an opportunity to respond to the IRS to explain how the income has been
accounted for on his or her Form 1040. If a taxpayer’s response adequately accounts for the income, the case is
closed with no change to tax.
5
  A fiscal year return is filed when a tax entity’s annual accounting period ends in any month other than December.
The allocated income from that year’s activities is reported on an individual’s calendar year tax return for the year in
which the entity’s fiscal year ends.
                                                                                                                      2
                    The Schedule K-1 Matching Program Has Been Improved, but
                          More Can Be Done to Increase Its Effectiveness



when they were initially processed. The IRS is aware of this problem and has corrected the
problem for electronically filed fiscal year Forms 1120S6 and the related Schedules K-1.
Remedial steps have been taken to identify fiscal year Forms 1065 and Forms 10417 and apply
these returns to the correct year’s Information Returns database until the problem with the initial
processing of these forms is corrected.

Recommendations
We recommended the Director, Submission Processing, Wage and Investment Division, ensure
electronically filed fiscal year Forms 1065 and 1041 are processed to the correct tax period. We
also recommended the Director, Communications, Liaison, and Disclosure, Small Business/
Self-Employed Division, further communicate the importance of providing schedules to explain
differences in income reported on Schedules K-1 and amounts reported on Schedule E, and stress
the importance of providing properly prepared Schedules K-1.

Response
IRS management agreed with our first recommendation and substantially agreed with our second
recommendation. Requirements to process fiscal year Schedules K-1 to the correct year have
been included in the Processing Year 2007 Request for Information Services.8 The
Communications, Liaison, and Disclosure function in the Small Business/Self-Employed
Division agreed to develop and implement a communication strategy to reemphasize accurate
reporting of income and losses on Schedules K-1 and will also reemphasize to Schedule K-1
preparers the necessity of properly identifying the entity responsible for reporting the Schedule
K-1 income. They also agreed to explore the feasibility of including information on Computer
Paragraph 2000 notices about these issues. The IRS does not agree that taxpayers should be
instructed to provide schedules for unexplained offsets. In our opinion, the IRS’ corrective
actions will satisfactorily address this issue. Management’s complete response to the draft report
is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.




6
  U.S. Income Tax Return for an S Corporation (Form 1120S).
7
  U.S. Return of Partnership Income (Form 1065) and U.S. Income Tax Return for Estates and Trusts (Form 1041).
8
  Requests for Information Services are formal written requests for changes to IRS computer programs.
                                                                                                                 3
                        The Schedule K-1 Matching Program Has Been Improved, but
                              More Can Be Done to Increase Its Effectiveness




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Several Changes to Reduce the Number of Unnecessary Notices
          Issued Have Been Implemented....................................................................Page 3
          The Accuracy of Schedule K-1 Information Has Improved, but
          Fiscal Year Schedules K-1 Are Not Always Properly Classified.................Page 4
                    Recommendation 1:..........................................................Page 5

          Cases Were Closed With No Change to Tax Primarily Because of
          Taxpayer Errors or Omissions ......................................................................Page 6
                    Recommendation 2:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
       The Schedule K-1 Matching Program Has Been Improved, but
             More Can Be Done to Increase Its Effectiveness




                    Abbreviations

IRS              Internal Revenue Service
TY               Tax Year
U.S.             United States
                    The Schedule K-1 Matching Program Has Been Improved, but
                          More Can Be Done to Increase Its Effectiveness




                                          Background

Beneficiary’s Share of Income, Deductions, Credits, etc. (Form 10411 Schedule K-1); Partner’s
Share of Income, Deductions, Credits, etc. (Form 10652 Schedule K-1); and Shareholder’s Share
of Income, Deductions, Credits, etc. (Form 1120S3 Schedule K-1) are information returns filed
by fiduciaries, partnerships, and S Corporations, respectively. They report the share of income,
losses, deductions, and credits that flow through to each beneficiary, partner, or shareholder.
The majority of Schedules K-1 received are associated with individual taxpayers, who should
report the appropriate income amounts on their U.S. Individual Income Tax Returns (Form
1040). Beginning with Tax Year (TY) 2000, Schedules K-1 not filed electronically were entered
into Internal Revenue Service (IRS) computers and combined with electronically filed Schedule
K-1 information for use in the IRS Underreporter program.4 We reported on the Schedule K-1
processing results and the initial Schedule K-1 Underreporter matching program results in 2002
and 2003, respectively.5
The IRS had mixed results in matching Schedule K-1 income during the first 2 years of the
matching program.6 Initially, only about 1 of 10 cases resulted in an assessment. Many notices
unnecessarily were sent to taxpayers and resulted in no additional tax. The first year no-change
rate for notices sent was approximately 55 percent. Since then, the IRS, tax preparers, and
taxpayers have made improvements that have helped the effectiveness of the Schedule K-1
matching program. No-change rates for TY 2002 were 33 percent. As of March 31, 2006, the
IRS had issued close to 71,000 notices to taxpayers questioning whether they had properly
reported their income from Schedule K-1 for TY 2003. Current no-change rates for TY 2003 are
37 percent. To further improve the Schedule K-1 matching program’s effectiveness, additional
changes need to be made. By making the changes outlined in this report, the IRS can further
reduce the burden experienced by taxpayers receiving unnecessary notices questioning whether
they included all of their income from Schedules K-1 on their individual income tax returns.




1
  U.S. Income Tax Return for Estates and Trusts.
2
  U.S. Return of Partnership Income.
3
  U.S. Income Tax Return for an S Corporation.
4
  The IRS Underreporter program compares the IRS database of Information Returns filed by employers, banks,
corporations, etc., to the IRS database of individual taxpayer returns.
5
  The Internal Revenue Service Successfully Processed Schedules K-1 for Its Matching Program, However, Tax
Form Changes Would Reduce Unnecessary Notices to Taxpayers (Reference Number 2002-30-141, dated
July 2002) and The Internal Revenue Service Could Reduce the Number of Unnecessary Notices Sent to Taxpayers
Regarding Unreported Income From Schedules K-1 (Reference Number 2003-30-071, dated March 2003).
6
  The Schedule K-1 matching program was initiated in 2002 and matched TY 2000 returns.
                                                                                                      Page 1
                    The Schedule K-1 Matching Program Has Been Improved, but
                          More Can Be Done to Increase Its Effectiveness



This review was performed at the IRS Campuses7 in Ogden, Utah, and
Philadelphia, Pennsylvania, during the period January through May 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




7
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                      The Schedule K-1 Matching Program Has Been Improved, but
                            More Can Be Done to Increase Its Effectiveness




                                        Results of Review

Several Changes to Reduce the Number of Unnecessary Notices
Issued Have Been Implemented
When data captured from a taxpayer’s records indicates the taxpayer reported less income on his
or her individual income tax return than payers reported on information returns, an Underreporter
program case is generated. The case is first screened by an IRS employee, who manually
reviews the taxpayer’s individual income tax return to find (or match) the unreported amounts.
If the amounts are located, the case is closed or “screened-out,” and no action is taken. If the
unreported amounts are not found on a taxpayer’s return during screening, the IRS sends a notice
to the taxpayer regarding the unreported income amounts. Any taxpayer receiving a notice as a
result of an Underreporter program case is given an opportunity to respond to the IRS to explain
how the income has been accounted for on his or her Form 1040. If a taxpayer’s response
adequately accounts for the income, the case is closed with no change to tax.
Schedule K-1 income is more difficult to match than the wage, interest, dividend, pension, and
similar income types that are normally identified by the Underreporter program. Tax law issues,
such as at-risk loss8 and passive-activity loss9 rules, and business deductions taken at the
taxpayer level make matching difficult. In addition, several types of income and deductions
reported on the Schedules K-1 may be found on many different schedules and attachments to a
taxpayer’s individual tax return.
Because of these difficulties in matching Schedule K-1 income, the Underreporter function
implemented several procedures to ensure notices were not issued to taxpayers unnecessarily.
Screeners are instructed to search a return thoroughly to identify typical offset issues that could
result in reporting differences and special procedures are in place for items that appear to be
partially reported.
In 2003, the IRS changed the Supplemental Income and Loss (Form 1040 Schedule E) and
related instructions to ensure taxpayers included an explanation of any discrepancies between
amounts reported to them on Schedules K-1 and amounts entered on their Form 1040
Schedule E. A check box was added to Schedule E Part II for taxpayers that are reporting a loss

8
  The at-risk rules limit the amount of losses that can be deducted to the amount a taxpayer has at risk. These rules
apply to losses from certain activities carried on as a trade or business or for the production of income.
9
  A passive activity loss occurs when total losses from all passive activities exceed total income for all passive
activities. Passive activity losses cannot be used to offset income from nonpassive activities. Passive activities
include trade or business activities in which a person does not materially participate for the tax year. It also includes
rental activities, regardless of the participation.
                                                                                                                 Page 3
                        The Schedule K-1 Matching Program Has Been Improved, but
                              More Can Be Done to Increase Its Effectiveness



not allowed in a prior year or deducting unreimbursed partnership expenses. The instructions
ask taxpayers to explain these differences on separate lines of the Schedule E Part II and to label
these amounts appropriately.
However, current statistics indicate this has done little to change the screen-out and no-change
rates. As of March 31, 2006, the screen-out rate for TY 2003 Schedule K-1 cases was
72 percent. For the remaining cases that had notices issued, the no-change rate was 37 percent
(with 85 percent of the notices resolved). For TY 2002 Schedule K-1 cases, the screen-out and
no-change rates were 75 percent and 33 percent, respectively, with 92 percent of all notices
resolved. This means only 18 and 17 percent10 of the cases initially selected for screening
resulted in a tax assessment for those 2 years. The overall Underreporting matching program has
an assessment rate of approximately 46 percent.
In our two earlier reviews, we recommended the IRS consider making changes to the Schedule E
to facilitate computer matching of Schedule K-1 income items. We cited a July 2000 IRS study
that proposed the IRS change the Schedule E to require taxpayers to separately list the original
amounts reported on Schedules K-1 and show the amount by which this income is offset.
However, IRS management states they are limited in what changes they can make to the current
Schedule E. In addition, issues relating to the burden caused by additional reporting
requirements for taxpayers and costs related to processing any additional information have to be
weighed against the costs of manually screening these cases in the Underreporter function.
Because of these limitations, the Schedule K-1 matching portion of the Underreporter program
will continue to require extensive manual screening of these cases and, accordingly, will have
significantly lower overall assessment rates for Schedule K-1 income than for other types of
income.

The Accuracy of Schedule K-1 Information Has Improved, but Fiscal
Year Schedules K-1 Are Not Always Properly Classified
In our 2002 report on the IRS’ processing of paper Schedules K-1, we noted the error rates were
quite low. We identified a 3.4 percent error rate, while 2 IRS reviews at the Ogden Campus
found exception rates between 2.5 percent and 3.7 percent. However, we did note that these
relatively small exception rates could still result in a significant number of underreported
Schedule K-1 cases due to the trickle-down effect of the incorrect information. In our 2003
report, we confirmed many cases that resulted in unnecessary notices being sent to taxpayers
involved IRS errors made during Schedule K-1 processing. At that time, 22 percent of the
notices issued to taxpayers that subsequently resulted in no change to tax were caused by
apparent IRS processing errors.



10
     (1-.72)*(1-.37) = .18 and (1-.75)*(1-.33) = .17.
                                                                                             Page 4
                     The Schedule K-1 Matching Program Has Been Improved, but
                           More Can Be Done to Increase Its Effectiveness



In our current review of a limited judgmental sample of 57 notices related to Schedules K-1 that
were sent to taxpayers and subsequently resulted in no changes to the taxpayers’ accounts, we
found 9 cases (16 percent) were caused by apparent IRS return processing errors. This is down
6 percent from the error rate identified in our prior review.
Although accuracy has improved since our prior review, the IRS still needs to properly identify
fiscal year returns during Schedule K-1 processing and ensure the Schedules K-1 from fiscal year
tax returns are included in the correct year’s Information Returns database. Five of 11 cases in
our 2003 report involved fiscal year returns11 with Schedules K-1 that were misclassified as
TY 2000 instead of TY 2001 information returns. Of the nine IRS processing errors we
identified during this review, five were due to the IRS not identifying fiscal year Schedules
K-1.12 These returns were included in the TY 2003 rather than the TY 2004 Information Returns
database.
Discussions with IRS officials indicated that electronically filed fiscal year Schedules K-1 are
not properly identified as fiscal year returns when they are initially processed. The IRS is aware
of this problem and they have corrected the problem for electronically filed fiscal year
Forms 1120S and the related Schedules K-1. They have been taking remedial steps to identify
fiscal year Forms 1065 and Forms 1041 and apply these returns to the correct year’s Information
Returns database until the problem with the initial processing of these forms is corrected.

Recommendation
Recommendation 1: The Director, Submission Processing, Wage and Investment Division,
should ensure electronically filed fiscal year Forms 1065 and Forms 1041 are processed to the
correct tax period during initial processing. This would help ensure the correct amount of
income will be identified for the Schedule K-1 matching program in the proper year and should
reduce the issuance of unnecessary notices for those years when the income is improperly
classified by the IRS.
         Management’s Response: The Director, Wage and Investment Division, Customer
         Account Services, Submission Processing, has included requirements to process fiscal
         year Schedules K-1 to the correct year in the Processing Year 2007 Request for
         Information Services.13




11
   A fiscal year return is filed when a tax entity’s annual accounting period ends in any month other than December.
The allocated income from that year’s activities is reported on an individual’s calendar year tax return for the year in
which the entity’s fiscal year ends.
12
   No specific trends were identified in the other cases.
13
   Requests for Information Services are formal written requests for changes to IRS computer programs.
                                                                                                               Page 5
                     The Schedule K-1 Matching Program Has Been Improved, but
                           More Can Be Done to Increase Its Effectiveness



Cases Were Closed With No Change to Tax Primarily Because of
Taxpayer Errors or Omissions
Many notices issued to taxpayers and subsequently closed with no change to tax could have been
avoided if taxpayers and/or their preparers had ensured documentation was provided to show
offsets they had taken against income related to Schedules K-1 and if they had ensured their
Schedule K-1 entity information was accurate when the Schedules K-1 were originally filed.
In our sample of 57 TY 2003 no-change cases, almost 2 of every 3 notices (39/57 or 68 percent)
were issued because of a taxpayer or preparer error. Taxpayers had omitted schedules or
documentation explaining offsets or other adjustments to their Schedule K-1 income in 16 of the
57 cases (28 percent).14 Another 16 cases were due to inaccurate information regarding the
person responsible for reporting the Schedule K-1 income.15 Examples of these errors included
income reported on the wrong types of tax returns or by the wrong individuals or business
entities.

Recommendation
Recommendation 2: The Director, Communications, Liaison, and Disclosure, Small
Business/Self-Employed Division, should issue additional instructions and alerts to taxpayers
and preparers stressing the need to provide schedules to explain any offsets to income reported
on Schedules K-1 when it is entered on individual Schedules E. Communications to preparers
should also stress the need to ensure entity information on Schedules K-1 properly identifies the
taxpayer (or other entity) responsible for reporting the Schedule K-1 income. The Computer
Paragraph 2000 issued for Schedules K-1 mismatches may be an appropriate vehicle through
which to provide this information. The Director should work with the Director, Reporting
Compliance, Wage and Investment Division, to explore this option.
        Management’s Response: Management substantially agreed with our
        recommendation. The Communications, Liaison, and Disclosure function in the Small
        Business/Self-Employed Division agreed to develop and implement a communication
        strategy to reemphasize accurate reporting of income and losses on Schedules K-1 and
        will also reemphasize to Schedule K-1 preparers the necessity of properly identifying the
        entity responsible for reporting the Schedule K-1 income. They also agreed to explore


14
   In our 2003 report, we noted 60 percent of the no-change cases were the result of taxpayers not identifying the
reasons for differences between income reported on their Schedules K-1 and amounts shown on their Schedules E.
15
   No specific trends were identified in the other seven cases.




                                                                                                            Page 6
          The Schedule K-1 Matching Program Has Been Improved, but
                More Can Be Done to Increase Its Effectiveness



the feasibility of including information on Computer Paragraph 2000 notices about these
issues. The IRS does not agree that taxpayers should be instructed to provide schedules
for unexplained offsets.
Office of Audit Comment: In our opinion, the IRS’ corrective actions will
satisfactorily address this issue.




                                                                                 Page 7
                    The Schedule K-1 Matching Program Has Been Improved, but
                          More Can Be Done to Increase Its Effectiveness



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether changes in the processing of cases
involving Schedule K-11 income in the IRS Underreporter matching program have improved the
program’s effectiveness. We also determined whether additional steps could be taken to further
reduce the issuance of unnecessary notices to individual taxpayers and still ensure notices are
issued when needed. Specifically, we:
I.      Determined the changes in forms and instructions and in processing guidelines that have
        been implemented since our last review and evaluated the effectiveness of any planned
        changes.
        A. Reviewed changes made to the U.S. Individual Income Tax Return (Form 1040)
           Supplemental Income and Loss (Schedule E) and the related instructions.
        B. Identified any changes to the Underreporter program instructions for cases with
           Schedules K-1.
        C. Discussed recent changes and any planned changes to the Schedule E with
           responsible employees from the IRS Tax Forms and Publications office.
        D. Discussed the results of the cross-functional task force that evaluated ways to
           simplify and make Schedules K-1 and E easier to match and less burdensome for
           taxpayers with responsible employees from the Taxpayer Burden Reduction and
           Compliance Strategies office.
        E. Evaluated the effectiveness of implemented changes and the likely improvements that
           planned changes will provide.
II.     Determined whether the IRS has reduced the number of unnecessary notices related to
        Schedules K-1 issued to taxpayers.
        A. Obtained and analyzed statistics for Underreporter cases related to Schedules K-1 for
           TYs 2000 through 2003.2


1
  Beneficiary’s Share of Income, Deductions, Credits, etc. (Form 1041 Schedule K-1); Partner’s Share of Income,
Deductions, Credits, etc. (Form 1065 Schedule K-1); and Shareholder’s Share of Income, Deductions, Credits, etc.
(Form 1120S Schedule K-1). Form 1041 is a U.S. Income Tax Return for Estates and Trusts. Form 1065 is a
U.S. Return of Partnership Income. Form 1120S is a U.S. Income Tax Return for an S Corporation.
2
  We did not test the statistics provided by the IRS. However, they were consistent from year to year and did not
have any apparent anomalies.
                                                                                                           Page 8
                    The Schedule K-1 Matching Program Has Been Improved, but
                          More Can Be Done to Increase Its Effectiveness



        B. Discussed the significance of statistics as they relate to processing and form changes
           with responsible Underreporter program analysts.
III.    Determined whether changes to Schedules K-1 and E and instructions improved the
        accuracy and effectiveness of Schedule K-1 matching program case processing.
        A. Selected a judgmental sample of 80 “screened-out” cases3 to determine the cause for
           the initial case and whether taxpayers provided information to show why reporting
           differences occurred. A judgmental sample was required because the entire universe
           of cases was not available for our review. We selected cases as they were closed by
           tax examiners and determined whether the cases were the result of:
             •   IRS input errors.
             •   IRS Underreporter program errors.
             •   Forms 1041, 1065, or 1120S reporting problems, such as amended returns or
                 misclassified or misreported amounts.
             •   Taxpayer reporting issues, such as offsets or netting.
        B. Selected a judgmental sample of 57 TY 2003 “no-change” cases to determine the
           cause for the initial case, potential ways to prevent the case, and whether the case
           should have been screened out without the issuance of a notice. A judgmental sample
           was required because the entire universe of cases was not available for our review.
           We selected cases as they were closed by tax examiners and determined whether the
           cases were the result of:
             •   IRS input errors.
             •   IRS Underreporter program errors.
             •   Forms 1041, 1065, or 1120S reporting problems, such as amended returns or
                 misclassified or misreported amounts.
             •   Taxpayer reporting issues, such as offsets or netting.




3
  A case is first screened by an IRS employee, who manually reviews the taxpayer’s individual income tax return to
find (or match) the unreported amounts. If the amounts are located, the case is closed or “screened-out,” and no
action is taken. If the unreported amounts are not found on a taxpayer’s return during screening, the IRS sends a
notice to the taxpayer regarding the unreported income amounts. Any taxpayer receiving a notice as a result of an
Underreporter program case is given an opportunity to respond to the IRS to explain how the income has been
accounted for on his or her Form 1040. If a taxpayer’s response adequately accounts for the income, the case is
closed with no change to tax.
                                                                                                           Page 9
                 The Schedule K-1 Matching Program Has Been Improved, but
                       More Can Be Done to Increase Its Effectiveness



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Greg Schmidt, Lead Auditor
Kyle D. Bambrough, Senior Auditor




                                                                                        Page 10
                The Schedule K-1 Matching Program Has Been Improved, but
                      More Can Be Done to Increase Its Effectiveness



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                    Page 11
    The Schedule K-1 Matching Program Has Been Improved, but
          More Can Be Done to Increase Its Effectiveness



                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 12
The Schedule K-1 Matching Program Has Been Improved, but
      More Can Be Done to Increase Its Effectiveness




                                                    Page 13
The Schedule K-1 Matching Program Has Been Improved, but
      More Can Be Done to Increase Its Effectiveness




                                                    Page 14
The Schedule K-1 Matching Program Has Been Improved, but
      More Can Be Done to Increase Its Effectiveness




                                                    Page 15
